HHS/OIG-Audit-" Review of Medical And Ancillary Medicaid Claims For
21 To 64 Year Old Residents of Private Psychiatric Hospitals That Are Institutions
For Mental Diseases in California During The Period July 1, 1997 Through January
31, 2001" ( A-09-02-00079 )
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medical and Ancillary Medicaid Claims for 21 To 64 Year Old
Residents of Private Psychiatric Hospitals That Are Institutions for Mental
Diseases in California During The Period July 1, 1997 Through January 31, 2001,"
(A-09-02-00079)
December 17, 2002
Complete
Text of Report is available in PDF format (1.48 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of medical and ancillary claims
for 21 to 64 year old residents of private psychiatric hospitals that are institutions
for mental diseases in California during the period of July 1, 1997 through
January 31, 2001.  This audit is part of our ongoing review of Medicaid
billings for patients in institutions for mental diseases (IMD).  The objective
of our review was to determine if the state of California had adequate controls
to preclude claiming federal financial participation (FFP) under the Medicaid
program when 21 to 64 year old residents of private IMDs received physician
services, laboratory and clinic services, and hospital outpatient treatment.
Federal Medicaid law and regulations prohibit FFP for this care.  We determined
that although the state did not have specific edits to prevent it from claiming
FFP, only a minor amount of unallowable FFP was claimed under Medicaid for medical
and ancillary services.  We concluded that the state substantially complied
with federal rules prohibiting claims of FFP under the Medicaid program for
medical and ancillary services provided to residents 21 to 64 year old in the
states 26 private psychiatric hospitals that were IMDs.